IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
NO. _______

JAMES LEE HERMAN, JR., a/k/a Herman Lee James, Jr., Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner James Lee Herman, Jr., a/k/a Herman Lee James, Jr., asks leave
to file the attached Petition for Writ of Certiorari, without prepayment of costs, and
to proceed in forma pauperis. Pursuant to the provisions of the Criminal Justice
Act, Petitioner was previously granted leave to proceed in both the United States
District Court for the Southern District of West Virginia and the United States
Court of Appeals for the Fourth Circuit on this case.
JAMES LEE HERMAN, JR.,
a/k/a Herman Lee James, Jr.
By Counsel

Jonathan D. Byrne
Appellate Counsel
Office of the Federal Public Defender
Southern District of West Virginia
Counsel for Petitioner

